I

TROUT LAW

Boise
3778 Plantation River Dr., Suite 101
Boise, Idaho 83703

Ketchum
P.O. Box 2946
Ketchum, ID 83340

t (208) 577. 5755
f (208) 577. 5756
www.trout-law.com

May 22, 2020
SENT VIA: Federal Express
Mr. Scott S.

Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Dunn v. Hatch, No. 19-1248

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on April 17, 2020 and docketed on
April 27, 2020. The response to the petition is currently due on May 27, 2020. Pursuant to Rule
30.4, respondents respectfully request that the time for filing a response be extended by thirty days,
up to and including June 27, 2020. Due to the COVID-19 pandemic, our firm is operating on
limited resources, and this would allow our firm the appropriate time to review with our client and
determine the next steps. In addition, I am not a member of the Bar of the United States Supreme
Court and I acknowledge that a brief in opposition must be filed by a Bar member.
Respectfully sub 'tted,

Kim J. Trout
CC:

John Merriam

RECEIVED
MAY 2 8 2020
OFFICE OF THE CLERK

SUPREME COURT, U.S.

